Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





A REVIEW OF NURSING FACILITY

RESOURCE UTILIZATION GROUPS





                    Daniel R. Levinson

                    Inspector General 


                      February 2006

                     OEI-02-02-00830

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program
evaluations (called inspections) that focus on issues of concern to the department, the
Congress, and the public. The findings and recommendations contained in the
inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. OEI also oversees
State Medicaid Fraud Control Units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                 S U M M A R Y                                               



                  OBJECTIVE
                  To determine the extent to which Resource Utilization Groups (RUGs)
                  on claims submitted by nursing facilities are different from those
                  generated based on evidence in the medical record.


                  BACKGROUND
                  This inspection is a followup to a 2001 Office of Inspector General report
                  entitled “Nursing Home Resident Assessment, Resource Utilization
                  Groups” (OEI-02-99-00041). That report found both upcoding and
                  downcoding differences between the RUGs submitted by the skilled
                  nursing facilities and those generated based on a review of the medical
                  record. It further noted that these problems needed continued attention
                  and that we planned to revisit them after the prospective payment
                  system had been implemented.

                  Medicare pays for Part A skilled nursing facility stays based on a
                  prospective payment system that categorizes each resident into a
                  payment group depending upon his or her care and resource needs.
                  These groups are called RUGs. Skilled nursing facilities determine a
                  RUG based on 108 items on an assessment of the resident known as the
                  Minimum Data Set (MDS). The Centers for Medicare & Medicaid
                  Services (CMS) requires skilled nursing facilities to complete the MDS
                  for each resident covered by Medicare Part A by approximately the 5th,
                  14th, and 30th day of the resident’s stay, and every 30 days thereafter, as
                  appropriate. CMS considers the MDS to be part of the medical record
                  and expects information contained in the rest of the medical record to
                  support the MDS.

                  The results of this inspection are based on an independent review of the
                  MDS and other documentation in the medical record for a random
                  sample of 272 claims submitted by skilled nursing facilities and from
                  interviews with staff who are responsible for completing the MDS at the
                  skilled nursing facilities.

                  The reviewers determined whether the responses submitted by skilled
                  nursing facilities on the 108 MDS items used to generate the RUG were
                  consistent with documentation in the rest of the medical record. If a
                  particular response to an MDS item was not consistent with the rest of
                  the medical record, the reviewer recoded that item and used the recoded
                  item to calculate a new RUG.


OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S       i
E X E C U T I V E                    S U           M M A R Y


                   For each resident, reviewers made a determination based on the
                   documentation available. If they did not find any documentation in the
                   medical record or the medical record contained information that was not
                   clear enough to make a judgment, they did not make an independent
                   determination.

                   This inspection does not determine the extent to which claims
                   submitted by skilled nursing facilities are medically necessary or
                   adequately supported by medical documentation. It is limited in scope
                   to whether the MDS is consistent with the rest of the medical record.


                   FINDINGS
                   Twenty-six percent of RUGs on claims were different from the ones
                   generated based on evidence in the medical record. Based on a
                   comparison of the MDS and the rest of the medical record, we found
                   that 26 percent of RUGs on claims submitted by skilled nursing
                   facilities (71 of the 272 claims in our sample) were different from the
                   ones generated based on evidence in the rest of the medical record.
                   More specifically, 22 percent of claims, or 59 of the 272 claims in our
                   sample, had a RUG with a higher associated payment rate than the one
                   generated based on evidence in the medical record. These differences
                   represented potential overpayments. The remaining 4 percent of
                   claims, or 12 of the 272 claims in our sample, had a RUG with a lower
                   associated payment rate than the one generated based on evidence in
                   the medical record, representing potential underpayments.

                   To determine the potential effects of these differences on total Medicare
                   payments, we calculated the net difference between the payment
                   amounts for the RUGs on the claims submitted by nursing facilities and
                   the payment amounts for RUGs generated from evidence in the medical
                   record. The net difference represented $542 million in potential
                   Medicare overpayments for fiscal year 2002, when projected to all
                   claims with RUGs generated from a 5-day, 14-day, or 30-day MDS
                   assessment.




 OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   ii
E X E C U T I V E                       S U           M M A R Y 




                  Minimum Data Set items that require look-back periods, multiple
                  assessors, or calculations contributed to differences in RUGs.
                  RUGs are generated from 108 items on the MDS resident assessment.
                  In the 71 claims in our sample that had a RUG different from the one
                  generated based on evidence in the medical record, 11 MDS items
                  accounted for 54 percent of all such instances. These 11 items had one
                  or more of the following characteristics: a look-back period (i.e.,
                  observation over time), multiple assessors (i.e., assessment by two or
                  more staff), or calculations.


                  RECOMMENDATION
                  We recommend that CMS take steps to ensure that skilled nursing
                  facilities complete the MDS accurately and assign each resident to the
                  correct RUG. These steps could include (1) continuing the type of
                  analysis conducted by the Data Assessment and Verification (DAVE)
                  project and (2) more carefully examining the 11 MDS items that we
                  found were most often inconsistent with the rest of the medical record.

                  In addition, we have forwarded to CMS for appropriate action
                  information on the 71 claims in our sample that had a RUG with a
                  payment rate different from the one generated based on evidence in the
                  medical record.


                  AGENCY COMMENTS
                  CMS concurred with our recommendation. CMS sees this report as
                  showing a significant improvement in the assignment of RUG categories
                  at the facility level compared to our 2001 report. CMS commented that
                  it would continue current efforts to improve the accuracy of the MDS
                  and has taken, or agreed to take, the following actions:
                  o 	 CMS recently awarded a contract to expand upon the DAVE
                      project, called DAVE2. The purpose of this new project is to
                      assess the accuracy and reliability of national CMS data through
                      focused onsite reviews of the MDS assessment.
                  o 	 CMS will take the findings of this report into consideration in
                      developing a Web-based training program for the Resident
                      Assessment Instrument Manual.
                  o 	 CMS will maintain ongoing communications with stakeholders,
                      such as State and regional staff, consultants, and trade
                      associations, regarding the MDS.

OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   iii
E X E C U T I V E                    S U           M M A R Y


                   o 	 CMS will have fiscal intermediaries and Program Safeguard
                       Contractors continue to assess MDS information through the
                       routine medical review process.
                   o 	 CMS will incorporate the findings of this report into educational
                       efforts to improve the accuracy of the MDS.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We agree with the actions CMS plans to take to improve the accuracy of
                   the MDS. However, it is important to note that, because of
                   methodological differences, the results of this report cannot be
                   compared to the results of the previous OIG report.

                   The methodologies of the two reports differed in two main ways. First,
                   for the previous report, reviewers completed an MDS based on the
                   resident’s medical record without referring to the original MDS and
                   then compared the results of the two assessments. In its comments to
                   the previous report, CMS noted that the MDS is a part of the medical
                   record. Therefore, for the current report, the reviewers included the
                   MDS in their review of the medical record. They compared the original
                   MDS to the rest of the medical record to determine whether they were
                   consistent. Second, for the previous report, we only reviewed the 14-day
                   MDS, while for the current report we reviewed the 5-day, 14-day, and
                   30-day MDS assessments. Because of these differences, the current
                   report cannot necessarily be used as evidence to show that MDS
                   accuracy has improved over time.




 OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   iv
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY                            ................................... i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 7

                   Differences found in 26 percent of RUGs . . . . . . . . . . . . . . . . . . . . . 7 


                   Certain MDS items contribute to differences in RUGs . . . . . . . . . . 8 




         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                  Agency Comments and Office of Inspector General Response . . . . 12




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                   A: Minimum Data Set . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                   B: RUG-III Classification System . . . . . . . . . . . . . . . . . . . . . . . . . 21 


                   C: Sampled RUGs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 


                   D: Differences in RUGs Between Claim and Reviewer . . . . . . . . 23 


                   E: Confidence Intervals for Key Findings . . . . . . . . . . . . . . . . . . . 25 


                   F: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 

I N T R O D        U C T        I O N
Δ    I N T R O D U C T I O N                                                   



                    OBJECTIVE
                    To determine the extent to which Resource Utilization Groups (RUGs)
                    on claims submitted by nursing facilities are different from those
                    generated based on evidence in the medical record.


                    BACKGROUND
                    This inspection is a followup to a 2001 Office of Inspector General report
                    entitled “Nursing Home Resident Assessment, Resource Utilization
                    Groups” (OEI-02-99-00041). That report found both upcoding and
                    downcoding differences between RUGs submitted by the skilled nursing
                    facilities and those generated based on a review of the medical record.
                    Specifically, it found that 46 percent of residents in an overall sample of
                    640 received an upcoded RUG, whereas 30 percent of residents received
                    a downcoded RUG. It further noted that these problems needed
                    continued attention and that we planned to revisit them after the
                    prospective payment system had been implemented.

                    This inspection determines the extent to which RUGs on claims
                    submitted by skilled nursing facilities are different from the ones that
                    would be generated based on evidence in the medical record. The
                    results of this review are determined from an independent review of the
                    resident assessment known as the Minimum Data Set (MDS) and looks
                    at whether the responses on the MDS are consistent with other
                    documentation in the medical record.
                    Resource Utilization Groups
                    Medicare pays skilled nursing facilities a daily rate to cover services
                    provided to Medicare residents during each day of a covered skilled
                    nursing facility stay. Medicare pays skilled nursing facilities based on a
                    prospective payment system that categorizes each resident into a
                    different group depending upon his or her care and resource needs.
                    These groups are called RUGs, and each represents a different Medicare
                    payment rate. CMS requires that each covered resident be correctly
                    assigned to one of the RUGs designated as representing the required
                    level of care.1
                    Skilled nursing facilities determine each resident’s RUG based on the
                    MDS. The Social Security Act, as amended by the Omnibus Budget

                    1 42 CFR § 424.20(a)(ii).




 OEI-02-02-00830    A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   1
 I N T R O D         U C T             I O N 





                  Reconciliation Act of 1987, requires Medicare skilled nursing facilities
                  to complete the MDS for each resident.2 CMS further requires that the
                  MDS be completed by the 5th, 14th, and 30th day of the resident’s stay,
                  and every 30 days thereafter, as appropriate for each resident covered
                  by Medicare Part A.3 CMS also requires that the MDS be conducted or
                  coordinated by a registered nurse in the skilled nursing facility. See
                  Appendix A for a copy of the MDS.

                  There are 553 items on the MDS. Data from 108 of the items are used
                  to determine the RUG and, therefore, the payment rate for each
                  resident covered in a Medicare Part A stay. There are seven major RUG
                  categories: Rehabilitation, Extensive Services, Special Care, Clinically
                  Complex, Impaired Cognition, Behavior Problems, and Reduced
                  Physical Function. These categories are further divided into 44
                  subcategories, each of which has a different Medicare payment rate.
                  See Appendix B for a list of the RUGs.

                  CMS considers the MDS to be part of the medical record and does not
                  require duplicative documentation.4 CMS expects that information
                  contained in the rest of the medical record supports, rather than
                  conflicts, with the MDS. Specifically, CMS’s Resident Assessment
                  Instrument Manual states that CMS expects that documentation
                  maintained by a skilled nursing facility in a resident’s medical record
                  will “chronicle, support, and be consistent with the findings of each
                  MDS assessment.”5 The manual further states that the MDS can be
                  “verified by a review of the entire record to verify that the medical
                  record supports and is consistent with the responses on the MDS.”6
                  CMS oversight
                  CMS conducts or has conducted five main oversight activities to monitor
                  the accuracy of the MDS:
                       o 	 CMS contracts with fiscal intermediaries to process Medicare
                             Part A skilled nursing facility claims. Fiscal intermediaries



                  2 42 USC § 1395i-3(b)(3)(A). 

                  3 63 Federal Register 26265, May 12 ,1998. 

                  4 Centers for Medicare & Medicaid Services, “Resident Assessment Instrument Version 2.0 

                   Manual, FY 2002,” Chapter 1.14, Clarifications Regarding Documentation Requirements,
                   p. 1-23.
                  5 Ibid.
                  6 Ibid.




OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   2
I N T R O D        U C T            I O N

                             identify outlier payments for extensive onsite and offsite medical
                             record reviews as part of their review of these claims.
                       o 	 CMS uses its Comprehensive Error Rate Testing (CERT)
                             Program to produce national error rates and error rates by
                             contractor, provider type, and benefit category-specific paid
                             claims. The project’s independent medical reviewers periodically
                             conduct medical reviews on random samples of Medicare claims.
                       o 	 CMS contracts with State agencies to conduct standard surveys
                             of nursing homes as part of the survey and certification process.
                             The State agencies look at MDS accuracy as part of the survey.
                       o 	 CMS regional offices monitor States’ nursing home survey and
                             certification processes by conducting comparative and
                             observational surveys, both of which assess MDS accuracy.
                       o 	 From 2001 to 2005, CMS contracted with Computer Science
                             Corporation for the Data Assessment and Verification project.
                             One of the primary goals of this project was to improve the
                             accuracy of MDS data through the establishment of State,
                             territory, and national MDS accuracy thresholds. The project
                             conducted both onsite and offsite medical record reviews to
                             determine these thresholds.7 It has not released any findings.




                  7 	 To do this analysis, the project selected a sample of skilled nursing facility stays which
                   contained multiple RUGs. The project compared the RUGs based on a medical record
                   review to the RUGs generated from the State MDS database (which are the data
                   submitted to the National Repository), the RUGs billed on the claim, and the RUGs
                   submitted by the skilled nursing facilities.



OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S    3
     I N T R O D         U C T                 I O N 




                  METHODOLOGY
                  Scope
                  This inspection determines the extent to which RUGs submitted on
                  skilled nursing facility claims are different from the ones that would be
                  generated based on evidence in the medical record. The results of this
                  review are determined from an independent review of the MDS and
                  documentation in the rest of the medical record for a random sample of
                  272 claims submitted by skilled nursing facilities and from interviews
                  with staff responsible for completing the MDS at the skilled nursing
                  facilities.
                  This inspection does not determine the extent to which claims
                  submitted by skilled nursing facilities are medically necessary or
                  adequately supported by medical documentation. It also does not
                  compute total improper payments for nursing facilities. Rather, it
                  focuses on whether the MDS is consistent with the rest of the medical
                  record.
                  Sample
                  We selected a simple random sample of 300 skilled nursing facility
                  claim line items from the National Claims History File. The population
                  from which we selected our sample included all claim line items that
                  contained a RUG calculated from a 5-day, 14-day, or 30-day MDS
                  assessment that had been submitted between October 1, 2001, and
                  September 30, 2002. We excluded 60-day and 90-day assessments,
                  readmission/return assessments, and other Medicare- or State-required
                  assessments from the population to simplify the medical record review. 8
                  For ease of presentation, we refer to claim line items as claims
                  throughout this report. Please see Appendix C for the number of claims
                  in each RUG for our sample.

                  For each of the 300 claims, we requested the resident’s medical record
                  from the skilled nursing facility for the date of admission through the
                  first 35 days of residence. We received medical records for 272 of the
                  300 claims.9 For the remaining 28 claims, we contacted each of the
                  facilities at least three times to obtain the medical records, but we



                  8 The 5-day, 14-day, and 30-day assessments represent about 87 percent of all Medicare
                   prospective payment system MDS assessments.
                  9 These claims were submitted by 267 skilled nursing facilities.




OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   4
I N T R O D        U C T        I O N


                    were unsuccessful. For these claims, we were unable to make key
                    comparisons between respondents and nonrespondents because we did
                    not have the medical records.
                    Medical Record Reviews
                    We contracted with an independent consulting firm to conduct a medical
                    record review. The medical record reviewers, two registered nurses,10
                    followed guidelines defined in the “Revised Long Term Care Resident
                    Assessment Instrument User’s Manual for the Minimum Data Set
                    Version 2.0.” They limited their review to the time period that coincided
                    with the assessment, i.e., the assessment reference date for the 5-day,
                    14-day, or 30-day assessment. The reviewers also considered
                    information from other time periods if it enhanced their understanding
                    of the case.

                    The reviewers focused their review on the 108 items on the MDS that
                    determine payment rates for Medicare Part A skilled nursing facility
                    stays. The reviewers determined whether the responses submitted by
                    skilled nursing facilities for these 108 MDS items were consistent with
                    evidence in the rest of the medical record. For example, if item J1h,
                    fever, was not indicated on the MDS, but the medical record indicated
                    that the resident had a fever in the last 7 days, reviewers considered
                    item J1h to be inconsistent with evidence in the rest of the medical
                    record.11
                    The reviewers made a determination based on the documentation
                    available. They did not draw any conclusion about an MDS item if
                    there was no documentation in the rest of the medical record or if, for
                    some other reason, they could not determine the appropriate response to
                    that item. This does not mean that the MDS item was accurate, only
                    that it was not possible to compare it to any related documentation in
                    the medical record.

                    The medical record reviewers generated a new RUG for each RUG in
                    our sample based on their review of the MDS and documentation in the
                    rest of the medical record. The reviewers used CMS’s Statistical
                    Analytical Software program script to generate a RUG. If a particular


                    10 One reviewer has a Ph.D. and the other is Masters-prepared.
                    11As explained earlier, this methodology is consistent with CMS’s Resident Assessment
                     Instrument Manual, which states that the MDS can be verified by a review of the medical
                     record that verifies that the record supports and is consistent with the responses on the
                     MDS.



 OEI-02-02-00830    A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   5
I N T R O D        U C T        I O N


                    MDS item was inconsistent with the rest of the medical record, the
                    reviewer recoded that item based on the evidence in the rest of the
                    medical record. Reviewers used the recoded item to recalculate the
                    RUG. In 155 of the 272 claims, the reviewers did not find any
                    documentation in the rest of the medical record or the medical record
                    did not contain enough information to make a judgment for at least one
                    item on the MDS. For these items, the reviewers did not make an
                    independent determination. This method resulted in a conservative
                    estimate of RUG differences.

                    Finally, we determined the potential effects of the RUG differences on
                    total Medicare payments. We calculated the net difference between the
                    payment amounts for the RUGs on the claims submitted by nursing
                    facilities and the payment amounts for the RUGs generated from
                    evidence in the medical record. For each RUG, we multiplied the urban
                    payment rate12 by the number of days on the claim and calculated the
                    difference. We then calculated the total net difference and projected it
                    to all claims with a RUG based on a 5-day, 14-day, and 30-day MDS
                    assessment in fiscal year 2002.
                    Interviews
                    MDS coordinators are responsible for overseeing and processing MDS
                    assessments for their nursing homes. We conducted a mail survey of
                    the 300 MDS coordinators in the skilled nursing facilities with a
                    resident in our sample of claims and received a response from 245. We
                    asked them about their experiences with the MDS and about any
                    problems they may have with the MDS.
                    Limitations
                    The size of our sample was not large enough to determine whether there
                    were certain RUGs that were more likely than others to differ from
                    those generated based on evidence in the medical record.
                    Standards
                    Our review was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




                    12 There is an urban and a rural payment rate for each RUG. The urban payment rate is

                      lower than the rural rate for the rehabilitation RUGs, which comprise 80 percent of the
                      RUGs in our sample. We used the urban rate to provide a more conservative estimate.



 OEI-02-02-00830    A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   6
Δ      F I N D I N G S 




   Twenty-six percent of Resource Utilization              Based on a comparison of the
Groups on claims were different from the ones              MDS and the rest of the medical
  generated based on evidence in the medical               record, we found that 26 percent
                                                           of RUGs on claims submitted by
                                       record
                                                           skilled nursing facilities (71 of
                     272 claims in our sample) differed from the ones generated based on
                     evidence in the rest of the medical record. The medical record
                     reviewers identified differences by reviewing the responses to the 108
                     MDS items used to generate the RUG and documentation in the rest
                     of the medical record.

                     The differences between the RUGs on the claims and the ones generated
                     based on evidence in the medical record resulted in both potential
                     underpayments and overpayments. As shown in Chart 1, 22 percent of
                     claims, or 59 of the 272 claims in our sample, had a RUG with a higher
                     associated payment rate than the one generated based on evidence in
                     the medical record. These differences represented potential
                     overpayments. The remaining 4 percent of claims, or 12 of the 272
                     claims in our sample, had a RUG with a lower associated payment rate
                     than the one generated based on evidence in the medical record,
                     representing potential underpayments. Appendix D includes a list of
                     the differences between the RUGs on the skilled nursing facility claims
                     and the ones generated based on evidence in the medical record for our
                     sample. Appendix E includes the confidence intervals for the key
                     estimates.


                     CHART 1
                     A Comparison of Claim RUGs to Medical Record RUGs




                                     22%
                                                                                  Claim RUG same as medical record RUG


                                4%
                                                                                  Claim RUG lower than medical record RUG
                                                              74%


                                                                                  Claim RUG higher than medical record RUG


                      Source: OIG medical record review, 2003.



   OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S           7
F   I N D I N G        S


                      These differences represented a net $542 million in potential Medicare
                      overpayments for fiscal year 2002
                      To determine the potential effects of these differences on total Medicare
                      payments, we calculated the net difference between the payment
                      amounts for the RUGs on the claims submitted by nursing facilities and
                      the payments for the RUGs generated from evidence in the medical
                      record. We found the net difference to be about $36,000 for our sample.
                      We then projected this estimate to all claims with a RUG based on a
                      5-day, 14-day, and 30-day MDS assessment in fiscal year 2002. This
                      estimate amounted to a net $542 million in potential Medicare
                      overpayments for fiscal year 2002.13



Minimum Data Set items that require look-back               RUGs are generated from
   periods, multiple assessors, or calculations             108 items on the MDS. In the 71
        contributed to differences in Resource              claims in our sample that had a
                                                            RUG different from the one
                             Utilization Groups
                                                            generated based on evidence in
                      the medical record, 11 MDS items were most frequently inconsistent
                      with documentation in the rest of the medical record. These 11 MDS
                      items accounted for 54 percent of the 291 total instances in which a
                      response on the MDS was inconsistent with the rest of the medical
                      record for the 71 claims.

                      These 11 MDS items have one or more of the following characteristics:
                      a look-back period (i.e., observation over time), multiple assessors (i.e.,
                      two or more staff assess a resident to determine these items), or
                      calculations. These measures are described below and are shown in
                      Table 1 on page 10.
                      Look-back
                      All 11 items require that the nurse completing the MDS evaluate the
                      resident by looking back over a period of time. For example, item
                      P1bba is the total number of days the resident has received
                      occupational therapy out of the last 7 days.

                      The look-back periods for these 11 MDS items range from 7 to 30 days
                      and can be difficult to code. For example, one MDS coordinator noted
                      that the varying number of days in the look-back is a particularly
                      confusing component of the MDS process. Also, several of these

                      13 In fiscal year 2002, Medicare payments to skilled nursing facilities totaled $14.2 billion.




    OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S    8
F 	I N D I N G 
S


                   look-back periods require information about the period prior to
                   admission, such as when the resident was in the hospital, which can be
                   difficult to obtain.
                   Determination by multiple assessors
                   Seven of the eleven items require a determination of the resident’s
                   performance by multiple assessors (i.e., two or more staff assess a
                   resident to determine these items). More than 25 percent of MDS
                   coordinators we interviewed suggested that one of the following
                   factors may contribute to differences between the MDS and the rest of
                   the medical record for these types of items:
                   o 	 Different staff may have added varying observations of a
                       resident’s abilities to the medical record.
                   o 	 A resident’s condition can change daily or throughout the day,
                       making it difficult to code these items.
                   o 	 Guidelines for these measures are not always clear, causing some
                       confusion about the appropriate coding.
                   Calculations
                   Four of the eleven items require the nurse completing the MDS to
                   calculate the total number of treatments, therapies, or physicians’
                   visits received by a resident during a specified time period. For
                   example, item P1bcb requires the assessor to calculate the total
                   number of therapy minutes the resident received during the prior
                   7 days.

                   We found that the most common issue for these items was that the
                   number of minutes or days of therapy recorded on the MDS did not
                   match the number recorded in the rest of the medical record. These
                   inconsistencies may be due in part to miscalculations. For example,
                   one MDS coordinator pointed out that it is particularly difficult to
                   calculate the number of doctors’ visits when there are multiple visits
                   on 1 day.




 OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   9
           F    I N D I N G                S           





Table 1: The 11 MDS Items Most Frequently Inconsistent With the Rest of the Medical Record
         in Claims With RUG Differences

                                                                                                                                Number of Claims
                                                                                                                                   With Conflicts
MDS Item Description                                                                                 Characteristics of Item             (n = 71)

                                                                                                     Calculation, look-back                   25
P1bbb - Occupational Therapy, Minutes

                                                                                                     Calculation, look-back                   24
P1bcb - Physical Therapy, Minutes

                                                                                                     Calculation, look-back                   19
P1bba - Occupational Therapy, Days

                                                                                                     Calculation, look-back                   15
P1bca - Physical Therapy, Days

G1aA - Bed Mobility Self-Performance, How Resident Moves                                                  Multiple assessors,
                                                                                                                                              13
From Lying Position, Turns Side to Side, and Positions Body                                                         look-back
                                                                                                          Multiple assessors,
                                                                                                                                              12
G1aB - Bed Mobility Support                                                                                         look-back
                                                                                                          Multiple assessors,
                                                                                                                                              11
G1bB - Resident’s Transfer Support                                                                                  look-back
                                                                                                          Multiple assessors,
                                                                                                                                              11
G1iA - Resident’s Self-Performance With Toileting                                                                   look-back
                                                                                                          Multiple assessors,
                                                                                                                                              10
G1bA - Resident’s Self-Performance for Transfer                                                                     look-back
                                                                                                          Multiple assessors,
                                                                                                                                               9
G1ib - Resident’s Support for Toilet                                                                                look-back
                                                                                                          Multiple assessors,
                                                                                                                                               9
G1Ha - Resident’s Self-Performance With Eating                                                                      look-back

     Total occurrences                                                                                                                       158

Source: OIG medical record review, 2003.




      OEI-02-02-00830          A REVIEW    OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S                 10
R   E C O        M M E N D A T                      I O N
Δ       R E C O M M E N D A T I O N                                                                 





                      Based on a comparison of the MDS and the rest of the medical record,
                      we found that approximately one-quarter of RUGs on claims submitted
                      by skilled nursing facilities differed from the ones generated based on
                      evidence in the medical record. These differences represented a net
                      $542 million in potential Medicare overpayments for fiscal year 2002.

                      We recommend that CMS take steps to ensure that skilled nursing
                      facilities complete the MDS accurately and assign each resident to the
                      correct RUG. These steps could include (1) continuing the type of
                      analysis conducted by the Data Assessment and Verification (DAVE)
                      project and (2) more carefully examining the 11 MDS items that we
                      found were most often inconsistent with the rest of the medical record.

                      In addition, we have forwarded to CMS for appropriate action
                      information on the 71 claims in our sample that had a RUG with a
                      payment rate different from the one generated based on evidence in the
                      medical record.


                      AGENCY COMMENTS
                      CMS concurred with our recommendation. CMS sees this report as
                      showing a significant improvement in the assignment of RUG categories
                      at the facility level compared to our 2001 report. CMS commented that
                      it would continue current efforts to improve the accuracy of the MDS
                      and has taken, or has agreed to take, the following actions:
                      o 	 CMS recently awarded a contract to expand upon the DAVE
                          project, called DAVE2. The purpose of this new project is to
                          assess the accuracy and reliability of national CMS data through
                          focused onsite reviews of the MDS assessment.
                      o 	 CMS will take the findings of this report into consideration in
                          developing a Web-based training program for the Resident
                          Assessment Instrument Manual.
                      o 	 CMS will maintain ongoing communications with stakeholders,
                          such as State and regional staff, consultants, and trade
                          associations, regarding the MDS.
                      o 	 CMS will have fiscal intermediaries and Program Safeguard
                          Contractors continue to assess MDS information through the
                          routine medical review process.


    OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   11
R 	E C O      M M E N D A T                      I O N


                   o 	 CMS will incorporate the findings of this report into educational
                       efforts to improve the accuracy of the MDS.

                   The full text of CMS’s comments is included in Appendix F.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We agree with the actions CMS plans to take to improve the accuracy of
                   the MDS. However, it is important to note that, because of
                   methodological differences, the results of this report cannot be
                   compared to the results of the previous OIG report.

                   The methodologies of the two reports differed in two main ways. First,
                   for the previous report, reviewers completed an MDS based on the
                   resident’s medical record without referring to the original MDS and
                   then compared the results of the two assessments. In its comments to
                   the previous report, CMS noted that the MDS is a part of the medical
                   record. Therefore, for the current report, the reviewers included the
                   MDS in their review of the medical record. They compared the original
                   MDS to the rest of the medical record to determine whether they were
                   consistent. Second, for the previous report, we only reviewed the 14-day
                   MDS, while for the current report we reviewed the 5-day, 14-day, and
                   30-day MDS assessments. Because of these differences, the current
                   report cannot necessarily be used as evidence to show that MDS
                   accuracy has improved over time.




 OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   12
Δ   A P P E N D I X                A            





      OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   13 

A   P   P E N D     I X      A       





           OEI-02-02-00830       A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   14
A   P   P E N D     I X      A       





           OEI-02-02-00830       A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   15
A   P   P E N D    I X        A     





            OEI-02-02-00830       A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   16
A   P   P E N D     I X      A       





           OEI-02-02-00830       A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   17
A   P   P E N D    I X        A     





            OEI-02-02-00830       A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   18
A   P   P E N D     I X      A       





           OEI-02-02-00830       A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   19
A   P   P E N D      I X    A     





          OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   20
Δ   A P P E N D I X                B            





      OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   21
  Δ           A P P E N D I X                                   C

Sampled RUGs


                                                                                                                                   Number in   Percentage of
                                                         Number in                      Percentage of                              Reviewed        Reviewed
 RUG Group                                                 Sample                             Sample                                 Sample          Sample
 RUC - Rehabilitation Ultra High C                                            5                               1.8%                         5            1.8%
 RUB - Rehabilitation Ultra High B                                          10                                3.3%                         8            2.9%
 RUA - Rehabilitation Ultra High A                                            4                               1.4%                         4            1.4%
 RVC - Rehabilitation Very High C                                             9                               3.0%                         8            2.9%
 RVB - Rehabilitation Very High B                                           32                              11.0%                         30           11.0%
 RVA - Rehabilitation Very High A                                           14                                4.6%                        13            4.7%
 RHC - Rehabilitation High C                                                53                              17.6%                         46           16.9%
 RHB - Rehabilitation High B                                                48                              16.0%                         46           16.9%
 RHA - Rehabilitation High A                                                19                                6.3%                        17            6.2%
 RMC - Rehabilitation Medium C                                              14                                4.6%                        13            4.7%
 RMB - Rehabilitation Medium B                                              22                                7.3%                        20            7.3%
 RMA - Rehabilitation Medium A                                              11                                3.6%                        10            3.6%
 RLA - Rehabilitation Low A                                                   1                               0.3%                         1            0.3%
      Total Rehabilitation                                                242                               80.6%                        221           81.2%
 SE3 - Extensive Services 3                                                 13                                0.4%                         9            3.3%
 SE2 - Extensive Services 2                                                 12                                4.0%                        11            4.0%
 SE1 - Extensive Services 1                                                   1                               0.3%                         1            0.3%
      Total Extensive Services                                              26                                8.6%                        21            7.7%
 SSC - Special Care C                                                         3                               1.0%                         3            1.1%
 SSB - Special Care B                                                         6                               2.0%                         6            2.2%
 SSA - Special Care A                                                       10                                3.3%                        10            3.6%
      Total Special Care                                                    19                                6.3%                        19            6.9%
 CC2 - Clinically Complex C2                                                  2                               0.6%                         2            0.7%
 CC1 - Clinically Complex C1                                                  1                               0.3%                         1            0.3%
 CB2 - Clinically Complex B2                                                  1                               0.3%                         1            0.3%
 CB1 - Clinically Complex B1                                                  1                               0.3%                         2            0.7%
 CA1 - Clinically Complex A1                                                  4                               1.3%                         4            1.4%
      Total Clinically Complex                                              10                                3.3%                        10            3.3%
 IB1 Impaired Cognition 1                                                     1                               0.3%                         0            0.0%
      Total Impaired Cognition                                                1                               0.3%                         0            0.0%
      Total Behavior Problems                                                 0                               0.0%                         0            0.0%
 PD1 Reduced Physical Functioning 1                                           2                               0.6%                         1            0.3%
      Total Physical Functioning
      Reduced                                                                 2                               0.6%                         1            0.3%

      Totals All RUG Categories                                           300                                                            272           100%
Source: OIG medical record review, 2003.



         OEI-02-02-00830           A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S                        22
 Δ       A P P E N D I X                                   D

Differences in RUGs Between Claim and Reviewer




                             Daily Payment                                                   Daily Payment
          Claim              Rate for Claim                    Reviewer                   Rate for Reviewer
          RUG                          RUG                         RUG                                 RUG                    Difference
          RUC                          $441.18                          RUB                                      $391.65          $49.53
          RUC                          $441.18                          RUB                                      $391.65          $49.53
          RUC                          $441.18                          RVC                                      $341.68          $99.50
          RUC                          $441.18                          RHC                                      $317.76        $123.42
          RUB                          $392.78                          RVB                                      $330.22          $62.56
          RUB                          $392.78                          RVB                                      $330.22          $62.56
          RUB                          $392.78                          RVB                                      $330.22          $62.56
          RUB                          $392.78                          RHB                                      $291.02        $101.76
          RVC                          $342.67                          RHC                                      $318.68          $23.99
          RVC                          $342.67                          RHC                                      $318.68          $23.99
          RVC                          $342.67                          RVB                                      $330.22          $12.45
          RVB                          $330.22                          RVA                                      $298.41          $31.81
          RVB                          $330.22                          RHC                                      $318.68          $11.54
          RVB                          $330.22                          RHB                                      $291.02          $39.20
          RVB                          $330.22                          RHB                                      $291.02          $39.20
          RVB                          $330.22                          RHB                                      $291.02          $39.20
          RVB                          $330.22                          RHB                                      $291.02          $39.20
          RVB                          $330.22                          RMB                                      $279.99          $50.23
          RVB                          $330.22                          RMB                                      $279.99          $50.23
          RVB                          $330.22                           CB1                                     $188.42         $141.80
          RVA                          $298.41                          RVB                                      $330.22        ($31.81)
          RVA                          $298.41                          RHB                                      $291.02           $7.39
          RVA                          $298.41                          RHA                                      $264.74          $33.67
          RVA                          $298.41                          RHA                                      $264.74          $33.67
          RHC                          $318.68                          RHB                                      $291.02          $27.66
          RHC                          $318.68                          RHB                                      $291.02          $27.66
          RHC                          $318.68                          RHB                                      $291.02          $27.66
          RHC                          $318.68                          RHB                                      $291.02          $27.66
          RHC                          $318.68                          RMC                                      $315.94           $2.74
          RHC                          $318.68                          RMB                                      $279.99          $38.69
          RHC                          $318.68                          RMB                                      $279.99          $38.69
          RHC                          $318.68                           SSA                                     $211.93        $106.75
          RHB                          $291.02                          RVB                                      $330.22        ($39.20)
          RHB                          $291.02                          RHA                                      $264.74          $26.28
          RHB                          $291.02                          RHA                                      $264.74          $26.28
          RHB                          $291.02                          RMB                                      $279.99          $11.03

         Source: OIG medical record review, 2003. 


         Daily payment rates are based on FY 2002 urban rates. 




     OEI-02-02-00830          A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S                23
A   P   P E N D       I X         D


    Differences in RUGs Between Claim and Reviewer (continued)




                                 Daily Payment                                                    Daily Payment
               Claim             Rate for Claim                     Reviewer                   Rate for Reviewer
               RUG                         RUG                          RUG                                 RUG                    Difference
               RHB                          $291.02                          RMB                                      $279.99           $11.03
               RHB                          $291.02                          RMB                                      $279.99           $11.03
               RHB                          $291.02                          RMB                                      $279.99           $11.03
               RHB                          $291.02                          RMA                                      $262.01           $29.01
               RHB                          $291.02                           SE2                                     $264.48           $26.54
               RHB                          $291.02                           SE2                                     $264.48           $26.54
               RHB                          $291.02                           SE2                                     $264.48           $26.54
               RHA                          $264.74                          RUA                                      $369.27       ($104.53)
               RHA                          $264.74                          RMA                                      $262.01            $2.73
               RHA                          $264.74                          RMA                                      $262.01            $2.73
               RHA                          $264.74                          RMA                                      $262.01            $2.73
               RHA                          $264.74                           SSA                                     $211.93           $52.81
               RMC                          $315.94                          RMB                                      $279.99           $35.95
               RMC                          $315.94                           SSC                                     $228.53           $87.41
               RMC                          $315.94                           CB1                                     $188.42         $127.52
               RMB                          $279.99                          RHC                                      $318.68        ($38.69)
               RMB                          $279.99                           SE2                                     $264.48           $15.51
               RMB                          $279.99                           PB1                                     $141.14         $138.85
               RMA                          $262.01                          RHA                                      $264.74          ($2.73)
               SE3                          $307.35                          RHB                                      $291.02           $16.33
               SE3                          $307.35                          RMB                                      $279.99           $27.36
               SE3                          $307.35                           CC1                                     $209.17           $98.18
               SE3                          $307.35                           PA1                                     $135.87         $171.48
               SE2                          $264.48                          RUB                                      $392.78       ($128.30)
               SE2                          $264.48                           SSA                                     $211.93           $52.55
               SE2                          $264.48                           CA2                                     $187.55           $76.93
               SE2                          $264.48                           IA1                                     $145.55         $118.93
               SE1                          $234.06                           SE3                                     $307.35        ($73.29)
               SSC                          $228.53                          RMC                                      $315.94        ($87.41)
               SSB                          $217.46                           CB1                                     $188.42           $29.04
               SSA                          $211.93                           SE1                                     $234.06        ($22.13)
               CC1                          $209.17                           SSC                                     $228.53        ($19.36)
               CB1                          $188.42                           CC1                                     $209.17        ($20.75)
               CA1                          $175.98                           PA1                                     $135.87           $40.11
               PD1                          $169.06                           SSA                                     $211.93        ($42.87)
             Source: OIG medical record review, 2003. 


             Daily payment rates are based on FY 2002 urban rates.





          OEI-02-02-00830          A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S                 24
  Δ           A P P E N D I X                                   E

  Confidence Intervals for Key Findings



Key Findings                                                                               Point Estimate                             Confidence Interval
26 percent of RUGs on claims submitted by skilled nursing
facilities were different from the ones generated based on                                                       26.1%                          20.9% - 31.3%
evidence in the medical record (n=272)


These differences in RUGs represent a net $542 million in
potential Medicare overpayments for fiscal year 2002                                                $542,173,340
                                                                                                                                   $258,705,071 - $825,641,610
(n=272)

Source: OIG medical record review, 2003.




         OEI-02-02-00830           A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S                          25
Δ   A P P E N D I X                            F            





OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   26 

A   P   P E N D       I X        F           





    OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   27 

A   P   P E N D       I X        F           





    OEI-02-02-00830   A REVIEW   OF   N U R S I N G FA C I L I T Y R E S O U R C E U T I L I Z AT I O N G R O U P S   28 

                      This report was prepared under the direction of Jodi Nudelman
                      Regional Inspector General for Evaluation and Inspections in the New
                      York regional offce. Other principal Offce of Evaluation and
                      Inspections staff who contributed include:
                      Miriam Anderson Team Leader
                      Judy Kells Program Analyst


                      Patricia Banta       Program Analyst

                      Tricia Davis Director, Medicare and Medicaid Branch
                      Sandy Khoury, 
     Program Specialist


                      Technical Assistance
                      Barbara Tedesco        Mathematical Statistician
                      Scott Horning,     Program Analyst





OEI. 02- 02. 00830   A REVIEW OF NURSING FACILITY ResouRcE UTILIZATION GROUPS
